 FHWA NEEDS TO CAPTURE BASIC
     AGGREGATE COST AND
 SCHEDULE DATA TO IMPROVE ITS
OVERSIGHT OF FEDERAL-AID FUNDS
         Office of the Secretary
     Federal Highway Administration

     Report Number: MH-2005-046
     Date Issued: February 15, 2005
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on FHWA’s Need to Capture                                     Date:    February 15, 2005
           Aggregate Cost and Schedule Data to Improve Its
           Oversight of Federal-aid Funds
           Report No. MH-2005-046
  From:    Alexis M. Stefani                                                         Reply to
                                                                                     Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Assistant Secretary for Budget and Programs/Chief Financial Officer
           Chief Information Officer
           Federal Highway Administrator


           In September 2004, the Federal Highway Administration (FHWA) submitted a
           Fiscal Year (FY) 2006 investment proposal for operating and maintaining the
           Fiscal Management Information System (FMIS).              FMIS is the financial
           management system used by FHWA to provide oversight of over $30 billion in
           disbursements to states for Federal-aid highway projects.

           We testified in May 2003,1 that because FMIS does not capture aggregate project
           cost information or any project schedule data, FHWA cannot analyze overall
           project cost overruns and schedule delays, which have impacted its ability to
           effectively oversee state management of Federal-aid funds. Further, we testified
           that FMIS does not capture aggregate project cost information, but rather only
           those costs associated with individual project segments. For example, 62 different
           project segments comprise the Woodrow Wilson Bridge project in the
           Washington, D.C., metropolitan area. To determine the total cost of the project,
           FHWA must contact its division offices, state departments of transportation, or
           project officials to determine the total costs of all associated contracts.



           1
               OIG Testimony, “Management of Cost Drivers on Federal-aid Highway Projects,” May 8, 2003. OIG testimony and
               reports can be accessed on our Web site at: www.oig.dot.gov
                                                                                                           2


Since FMIS was implemented 35 years ago, the importance of project
management has increased. In the past, when project cost overruns occurred on
highway projects, FHWA approved additional funding to cover the added costs.
The ability to provide this funding was made possible by a stable Highway Trust
Fund. However, in the past 5 years, collections of gasoline tax receipts—the
major source of Highway Trust Fund revenues—have remained static, while the
demand for highway funds has substantially increased.

With fewer resources to fund important transportation projects, FHWA has placed
greater emphasis on ensuring projects are delivered on time and within budget.
On February 27, 2003,2 and April 29, 2004,3 the Federal Highway Administrator
testified that FHWA is strengthening its oversight of highway funds by: (1) using
risk assessments to refocus its oversight of state management practices, and
(2) mandating reviews of grant payments to ensure that Federal funds are properly
managed. The Department has also established a goal of ensuring that at least 95
percent of major federally funded infrastructure projects (with estimated costs
exceeding $1 billion) meet, or come within 10 percent of, cost and schedule
estimates established in project agreements. These initiatives will rely heavily on
highway project data.

Due to the importance of the data to FHWA’s oversight initiatives and the
Department’s performance goals, we determined whether FHWA’s investment
proposal for FMIS adequately addressed project data shortfalls we identified in
2002. Details on our objective, scope, and methodology are in Exhibit A.

OBSERVATIONS AND RECOMMENDATIONS
Our review of FHWA’s investment proposal for FMIS disclosed that it did not
address improvements needed to remedy project data shortfalls affecting FHWA’s
oversight of Federal-aid projects. While some of the data shortfalls can be
addressed in the long term, others are needed for financial reporting and require
immediate attention. For example, auditors conducting the FY 2004 Highway
Trust Fund Financial Statement audit cited inadequate grants financial
management oversight as a material weakness. FHWA needs to enhance its
current system of financial management oversight, anchored by more
comprehensive cost and schedule data, to ensure that grant funds are safeguarded
against fraud, waste, and abuse.



2
    Statement of the Federal Highway Administrator before the Senate Committee on Environment and Public
    Works, Subcommittee on Transportation and Infrastructure, February 27, 2003.
3
    Statement of the Federal Highway Administrator before the House Committee on Appropriations, Subcommittee
    on Transportation, Treasury, and Independent Agencies, April 29, 2004.
                                                                                          3


Unless FHWA acts quickly to develop an automated capability to identify the total
cost of projects and any cost overruns, it will not have the most basic data needed
to satisfy its grants management oversight responsibilities and to correct the
material weakness. FHWA plans to develop such a capability for projects that
cost $1 billion or more by the end of April 2005. However, neither the scope of
nor the timetable for this effort will ensure that FHWA has the necessary data in
time to improve its grants management oversight of all projects. While FHWA
has acknowledged the need to aggregate project cost data for projects $10 million
or more, it has not taken action to do so.

Without fundamental project cost and schedule information, FHWA will also have
difficulty implementing major oversight initiatives directed at evaluating state
financial management practices and accomplishing the Department’s performance
goal of ensuring major projects are delivered on time and within budget. Because
FMIS cannot aggregate project segment costs to determine total project costs and
does not capture schedule data, FHWA will have to rely on alternative labor-
intensive methods to measure progress in meeting this goal. Additionally,
two major initiatives to improve FHWA oversight of Federal-aid funds would
benefit greatly from project cost data that are not currently available in FMIS.
These initiatives include: (1) the use of risk assessments to identify state
management practices warranting oversight attention, and (2) annual reviews of
state financial transactions.

FHWA officials have acknowledged that more project data are needed to resolve
longstanding oversight deficiencies.4 In responding to the FY 2004 financial
statement audit, FHWA agreed to upgrade FMIS to aggregate project cost data for
projects valued at $10 million or more by December 2004. However, this upgrade
will now only aggregate total costs for those projects that are $1 billion or more
and will not be implemented until the end of April 2005. Further, it will not
provide the capability to track project completion dates or other schedule data to
evaluate project performance. Obtaining schedule data is important for improving
stewardship and oversight, but is less pressing than cost data, and can be addressed
as part of a longer-term solution. The Department is also considering including
FMIS in its Grants Automation Consolidation Opportunity initiative (GACO);
however, it has not yet identified data enhancements that would be made under
this initiative or determined when the initiative will be implemented.

Given that existing deficiencies in project cost data reflect weaknesses in the
financial management controls affecting future financial statements, FHWA
should expand its plans for aggregating project costs in FMIS to ensure that costs
are aggregated for all projects regardless of their value. This information will be

4
    This acknowledgement was made in FHWA’s preliminary FY 2006 Exhibit 300 submission.
                                                                                  4


used in FHWA’s oversight initiatives aimed at evaluating state financial
management practices. We also recommend that by March 31, 2005, FHWA
identify a plan and the associated costs for collecting project schedule data, which
along with project cost data, will be needed for measuring its performance in
meeting the Department’s goal for project delivery. Details on our observations
are provided below.

FMIS Does Not Provide Sufficient Project Data Needed by FHWA
to Strengthen its Oversight of Federal-Aid Funds

FHWA’s FY 2006 investment proposal for FMIS5 did not address the costs
associated with mitigating known project data deficiencies. Whether data are
needed for a single major project or to determine statewide performance, labor-
intensive efforts are required to collect the needed project cost and schedule data.
For example, FMIS does not aggregate cost data or capture estimated project
completion dates or schedule information that could be used to evaluate project
performance. Because FMIS identifies project segment status only as “under
way,” “complete,” or “closed,” FHWA cannot use FMIS to determine whether a
project is meeting established milestones or how delays in project segments will
impact the project’s final completion date. These deficiencies hinder FHWA’s
efforts to provide effective oversight. For example:

      • The FY 2004 Highway Trust Fund financial statement auditors reported
        FHWA grants financial management oversight as a material weakness.
        They determined that FHWA division offices provided inadequate
        oversight to protect Federal funds from fraud, waste, and abuse. To
        illustrate, FHWA does not have an effective process to assess grantee
        financial management risks. Better data about project cost and schedules
        are needed to conduct effective assessments.

      • FHWA could not readily determine the project-level funding status of
        earmarked projects requested by the former Chairman of the Senate
        Committee on Commerce, Science, and Transportation.

Project data shortfalls will also make it difficult for FHWA to achieve the
Department’s performance goal of ensuring that at least 95 percent of major
federally funded infrastructure projects meet, or come within 10 percent of, the
cost and schedule estimates established in project or contract agreements. For
example, because FMIS does not contain adequate project data, FHWA has to


5
    The FMIS FY 2006 budget is incorporated in the consolidated DOT Form 300.
                                                                                                                     5


undertake a labor-intensive data-collection process to determine whether project
cost overruns and schedule delays have occurred.

Additionally, two major initiatives to improve FHWA oversight of Federal-aid
funds will benefit greatly from project cost data that are not currently available in
FMIS. These initiatives include the use of risk assessments to identify state
management practices warranting oversight attention and annual reviews of state
financial transactions. FHWA division offices will require information on project
cost performance to assess risks in state financial management practices and to
review state financial transactions related to the expenditure of Federal-aid funds.

FHWA’s Plans for Addressing Data Deficiencies are Insufficient
FHWA officials have acknowledged that more project data are needed to resolve
longstanding oversight deficiencies. In responding to the FY 2004 financial
statement audit findings, FHWA agreed to develop reports to aggregate FMIS
project cost data for those projects that are $10 million or more by December 31,
2004.6 FHWA now estimates that this effort will be completed by the end of April
2005. In October 2004, FHWA acknowledged that it also needed to identify the
aggregate cost of projects under $1 billion. We note that since that time FHWA
has not implemented action to aggregate total costs for these projects and has not
pursued the development of project schedule data within FMIS. The Department
is also considering including FMIS in its Grants Automation Consolidation
Opportunity initiative (GACO); however, it has not yet identified data
enhancements that would be made under this initiative or determined when the
initiative will be implemented.

While aggregating project cost data for projects valued at $1 billion or more in
FMIS is a positive step, FHWA’s plans are inadequate given the fundamental
importance of highway project data. Specifically:

      • FHWA’s plans to aggregate project costs for projects that are more than
        $1 billion or more will not significantly improve financial management
        controls over the FY 2005 Highway Trust Fund financial statements.
        Aggregate cost information for all projects regardless of their cost will be
        needed well in advance of the end of FY 2005 so that FHWA can utilize the
        data to increase project oversight. Even if FHWA aggregates project costs
        for projects that are $1 billion or more by April 30, 2005, it will be difficult
        for FHWA to demonstrate to the auditors that the data were used effectively
        to improve controls over grants management.


6
    Although not separately identified in the Form 300, the cost to develop these reports is being funded from the FMIS
    operations and maintenance budget.
                                                                                   6


   • Until the data are available, FHWA will be unable to effectively carry out
     oversight initiatives that the Federal Highway Administrator has testified
     are essential to strengthening FHWA’s oversight of highway funds.
     Specifically, FHWA must have readily available data on project cost
     growth to perform financial risk assessments and to assess states’
     management of Federal-aid funds.

   • FHWA has no plans to modify FMIS to flag all funding sources (non-
     earmarked funds) associated with earmarked projects. In the past, FHWA
     has had difficulty responding to congressional requests for the funding
     status of earmarked projects.

   • FHWA has not developed a plan for capturing project schedule data—
     information that FHWA officials believe cannot be easily incorporated into
     FMIS, which tracks financial data. We agree that FMIS may not be the
     most appropriate system for capturing project schedule data. However, as
     part of a long-term solution, it is our opinion that FHWA must have the
     capability either through FMIS or another automated system to track
     project completion dates and other schedule information that could be used
     to evaluate project performance.

RECOMMENDATIONS
We recommend that FHWA:

1. Expand plans for aggregating project costs in FMIS to ensure costs are also
   aggregated for projects under $1 billion and implement the change during
   FY 2005, and take steps to identify all funding sources for earmarked projects.

2. By March 31, 2005, identify a strategy, and the associated costs, for collecting
   project schedule data needed to improve oversight of Federal-aid highway
   program activities and measure achievement of the Department’s project
   delivery goal.

MANAGEMENT COMMENTS AND ACTION REQUIRED
We discussed the results of our audit on January 27, 2005, and January 31, 2005,
with the FHWA Director of Budget and Finance and the Director of Program
Administration, and on January 28, 2005, with the Director of the Department’s
Office of Financial Management (OFM). Both FHWA and OFM officials
generally agreed with the report’s recommendations. FHWA agreed to develop
aggregate cost and cost overrun reports for projects that are $1 billion or more by
April 30, 2005, expand its plans to aggregate costs for all projects and identify all
                                                                                  7


funding sources for earmarked projects. Additionally, FHWA will identify a
strategy by March 31, 2005, for collecting project schedule data.

In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 calendar days. If you
concur with the finding and recommendations, please indicate the specific action
taken or planned for each recommendation and the target dates for completion. If
you do not concur, please provide your rationale. You may provide alternative
courses of action that you believe would resolve the issue presented in this report.

We appreciate the cooperation and assistance provided by you and your staff
during our review. If you have any questions concerning this report, please call
me at (202) 366-1992 or Debra Ritt, Assistant Inspector General for Surface and
Maritime Programs, at (202) 366-5630.
                                      #

cc: Investment Review Board Members
    FHWA Associate Administrator for Administration
                                                                                                                        8




EXHIBIT A. OBJECTIVE, SCOPE, AND
METHODOLOGY
Our objective was to determine whether FHWA’s investment proposal for FMIS
adequately addressed project data shortfalls. To accomplish our objective, we
reviewed supporting information contained in an FHWA report on the FMIS
investment, known as Exhibit 300. FHWA prepares and updates the Exhibit 300
on a continuing basis and includes it in the capital asset plan and business case
submission to the OMB for the annual budget request. Exhibit 300 is also a
management tool used to measure the performance of information technology
investments against expected costs, benefits, and schedule milestones. In addition,
we reviewed information contained in the Program Assessment Rating Tool
(PART)1 review. This review was performed by OMB to assess the effectiveness
of the FHWA Federal-aid infrastructure. We also met with Office of the Secretary
and FHWA officials located in Washington, D.C., to discuss the FMIS data
shortfalls, current FHWA initiatives, and the Department’s consolidation efforts.

We conducted this review from February 2004 through January 2005, in
accordance with the Government Auditing Standards prescribed by the
Comptroller General of the United States, and included such tests as were
considered necessary to provide a reasonable assurance of detecting abuse or
illegal acts.




1
    The PART is a series of questions designed to provide a consistent approach to rating programs across the Federal
     Government. It is a diagnostic tool that relies on objective data to assess and evaluate programs across a wide range
     of issues related to performance.




Exhibit A. Objective, Scope, and Methodology
                                                                                     9




EXHIBIT B. PRIOR AUDIT COVERAGE

OIG Report Number QC-2005-007, Quality Control Review of Audited
Financial Statements for FY 2004 and FY 2003, Highway Trust Fund,
November 12, 2004. We reported that the audit work performed by the outside
auditors, Clifton Gunderson LLP, complied with applicable government standards.
The auditors identified two material weaknesses directly related to FMIS:
(1) Grant Financial Management Oversight, and (2) Information Technology
Applications.

Grant Financial Management Oversight – The audit work noted deficiencies in
FHWA’s financial management oversight on highway projects. FHWA disbursed
approximately $30 billion to grantees and others in FY 2004. The report
recommended that FHWA implement new procedures to improve controls
currently in place to ensure that such funds are safeguarded against fraud, waste
and abuse.

Information Technology Applications – The auditors reported weaknesses in
several aspects of the information technology (IT) systems in both the general and
specific applications used by Highway Trust Fund agencies to prepare the
financial statements. The IT weaknesses directly impact the ability of the users to
rely on data being generated by the systems and require the users to employ
extended financial analysis of such information to ensure its accuracy.
Accordingly, reliance on data being generated from these systems by the system
users is critical to their ability to prepare reliable financial statements in a timely
manner.

The DOT Assistant Secretary for Budget and Programs/Chief Financial Officer
concurred with the weaknesses and prepared a detailed action plan.




Exhibit B. Prior Audit Coverage
                                                                       10




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                            Title

  Debra S. Ritt                   Assistant Inspector General
                                   for Surface and Maritime Programs

  Jim H. Crumpacker               Program Director

  Michael Ralph                   Program Director

  Michael Marshlick               Computer Scientist

  Reginald Robinson               Project Manager

  Tyler Apffel                    Senior Auditor

  Jean Yoo                        Information Technology
                                    Specialist

  Harriet Lambert                 Editor




Exhibit C. Major Contributors to This Report
